Board of Governors of The
Federal Reserve System
Financial Statements as of and for the
Years Ended December 31, 2011 and 2010,
and Independent Auditors’ Report
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

TABLE OF CONTENTS


                                                                                       Page

MANAGEMENT’S ASSERTION                                                                  1

INDEPENDENT AUDITORS’ REPORT                                                            2

INDEPENDENT AUDITORS’ REPORT ON INTERNAL                                               3–4
  CONTROL OVER FINANCIAL REPORTING

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2011 AND 2010:

 Balance Sheets                                                                         5

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations   6–7

 Statements of Cash Flows                                                               8

 Notes to Financial Statements                                                         9–25

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL                        26
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS
                                        BOARD OF GOVERNORS
                                                   Of THE
                                  FEDERAL RESERVE SYSTEM
                                          WASHINGTON, D. C:. 20551




                                               March 8, 2012


MANAGEMENT'S ASSERTION

To the Committee on Board Affairs:

         The management ofthe Board of Governors ofthe Federal Reserve System ("the Board") is
responsible for the preparation and fair presentation of the balance sheet as of December 31, 2011, and for
the related statement of revenues and expenses and changes in cumulative results of operations, and cash
flows for the year then ended (the "Financial Statements"). The Financial Statements have been prepared
in conformity with accounting principles generally accepted in the United States of America and, as such,
include some amounts which are based on management judgments and estimates. To our knowledge, the
Financial Statements are, in all material respects, fairly presented in conformity with generally accepted
accounting principles and include all disclosures necessary for such presentation.

         Board management is also responsible for establishing and maintaining effective internal control
over financial reporting as it relates to the Financial Statements. Such internal control is designed to
provide reasonable assurance to management and to the Committee on Board Affairs regarding the
preparation of the Financial Statements in accordance with accounting principles generally accepted in
the United States of America. The Board's internal control over financial reporting includes those policies
and procedures that ( 1) pertain to the maintenance of records that, in reasonable detail, accurately and
fairly reflect the transactions and dispositions of the assets of the Board; (2) provide reasonable assurance
that transactions are recorded as necessary to permit preparation of Financial Statements in accordance
with generally accepted accounting principles, and that the Board's receipts and expenditures are being
made only in accordance with authorizations of its management; and (3) provide reasonable assurance
regarding prevention or timely detection of unauthorized acquisition, use, or disposition of the Board's
assets that could have a material effect on the Financial Statements.

         Even effective internal control-no matter how well designed-has inherent limitations, including
the possibility of human error. Internal control, therefore, can provide only reasonable assurance with
respect to the preparation of reliable Financial Statements. Also, projections of any evaluation of
effectiveness to future periods are subject to the risk that specific controls may become inadequate
because of changes in conditions or that the degree of compliance with policies or procedures may
deteriorate.

       Board management assessed its internal control over fmancial reporting reflected in the Financial
Statements based upon the criteria established in the Internal Control-Integrated Framework issued by
the Committee of Sponsoring Organizations ofthe Treadway Commission.

        Based on this assessment, we believe that the Board has maintained effective internal control over
financial reporting as it relates to its Financial Statements.

     by

                         erson
                                                            by   LJA£QUl~oZ' 'h~
                                                                 William L. Mitchell
          Chief Operating Officer                                ChiefFinancial Officer



                                                                                                                .....
                                                                              Deloitte & Touche LLP
                                                                              Suite 800
                                                                              1750 Tysons Boulevard
                                                                              McLean, VA 22102-4219
                                                                              USA
                                                                              Tel: +1 703 251 1000
                                                                              Fax: +1 703 251 3400
                                                                              www.deloitte.com


INDEPENDENT AUDITORS' REPORT

To the Board of Governors of the Federal Reserve System:
Washington, D.C.

We have audited the accompanying balance sheets of the Board of Governors of the Federal
Reserve System (the “Board”) as of December 31, 2011 and 2010, and the related statements of
revenues and expenses and changes in cumulative results of operations, and cash flows for the
years then ended. These financial statements are the responsibility of the Board’s management.
Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards as established
by the Auditing Standards Board (United States), auditing standards of the Public Company
Accounting Oversight Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Board of Governors of the Federal Reserve System as of December 31, 2011 and
2010, and the results of its operations and its cash flows for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), the Board's internal control over financial reporting as of
December 31, 2011, based on the criteria established in Internal Control—Integrated Framework
issued by the Committee of Sponsoring Organizations of the Treadway Commission and our
report dated March 8, 2012 expressed an unqualified opinion on the Board's internal control over
financial reporting.

In accordance with Government Auditing Standards, we have also issued our report dated March
8, 2012, on our tests of the Board’s compliance with certain provisions of laws, regulations,
contracts, and grant agreements and other matters. The purpose of that report is to describe the
scope of our testing of compliance and the results of that testing, and not to provide an opinion
on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




March 8, 2012
                                                                                   Deloitte & Touche LLP
                                                                                   Suite 800
                                                                                   1750 Tysons Boulevard
                                                                                   McLean, VA 22102-4219
                                                                                   USA
                                                                                   Tel: +1 703 251 1000
                                                                                   Fax: +1 703 251 3400
                                                                                   www.deloitte.com



INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING

To the Board of Governors of the Federal Reserve System:
Washington, D.C.

We have audited the internal control over financial reporting of the Board of Governors of the
Federal Reserve System (the “Board”) as of December 31, 2011, based on criteria established in
Internal Control — Integrated Framework issued by the Committee of Sponsoring Organizations
of the Treadway Commission. The Board's management is responsible for maintaining effective
internal control over financial reporting and for its assessment of the effectiveness of internal
control over financial reporting, included in the accompanying Management’s Assertion report.
Our responsibility is to express an opinion on the Board's internal control over financial reporting
based on our audit.

We conducted our audit in accordance with the standards of the Public Company Accounting
Oversight Board (United States). Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether effective internal control over financial reporting was
maintained in all material respects. Our audit included obtaining an understanding of internal
control over financial reporting, assessing the risk that a material weakness exists, testing and
evaluating the design and operating effectiveness of internal control based on the assessed risk,
and performing such other procedures as we considered necessary in the circumstances. We
believe that our audit provides a reasonable basis for our opinion.

The Board’s internal control over financial reporting is a process designed by, or under the
supervision of, the Board’s principal executive and principal financial officers, or persons
performing similar functions, and effected by the Board's Committee on Board Affairs,
management, and other personnel to provide reasonable assurance regarding the reliability of
financial reporting and the preparation of financial statements for external purposes in accordance
with generally accepted accounting principles. Internal control over financial reporting includes
those policies and procedures that (1) pertain to the maintenance of records that, in reasonable
detail, accurately and fairly reflect the transactions and dispositions of the assets of the Board; (2)
provide reasonable assurance that transactions are recorded as necessary to permit preparation of
financial statements in accordance with generally accepted accounting principles, and that
receipts and expenditures of the Board are being made only in accordance with authorizations of
management and governors of the Board; and (3) provide reasonable assurance regarding
prevention or timely detection of unauthorized acquisition, use, or disposition of the Board's
assets that could have a material effect on the financial statements.

Because of the inherent limitations of internal control over financial reporting, including the
possibility of collusion or improper management override of controls, material misstatements due
to error or fraud may not be prevented or detected on a timely basis. Also, projections of any
evaluation of the effectiveness of the internal control over financial reporting to future periods are
subject to the risk that the controls may become inadequate because of changes in conditions, or
that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, the Board maintained, in all material respects, effective internal control over
financial reporting as of December 31, 2011, based on the criteria established in Internal Control
— Integrated Framework issued by the Committee of Sponsoring Organizations of the Treadway
Commission.

We have also audited, in accordance with the standards of the Public Company Accounting
Oversight Board (United States), generally accepted auditing standards as established by the
Auditing Standards Board (United States), and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the United
States, the accompanying balance sheet, statements of revenues and expenses and changes in
cumulative results of operations, and cash flows as of and for the year ended December 31, 2011
of the Board and our report dated March 8, 2012 expressed an unqualified opinion on those
financial statements.




March 8, 2012
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

BALANCE SHEETS
AS OF DECEMBER 31, 2011 AND 2010


                                                             2011              2010
ASSETS
CURRENT ASSETS:
 Cash                                                  $    73,592,126    $    55,142,632
 Accounts receivable — net                                   5,433,087          3,234,076
 Prepaid expenses and other assets                           3,338,770          2,657,914
      Total current assets                                  82,363,983         61,034,622

NONCURRENT ASSETS:
 Property, equipment, and software — net                   181,903,601        156,767,186
 Other assets                                                  476,795            576,659
      Total noncurrent assets                              182,380,396        157,343,845

TOTAL                                                  $ 264,744,379      $   218,378,467

LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS
CURRENT LIABILITIES:
 Accounts payable and accrued liabilities              $    25,686,787    $    15,403,521
 Accrued payroll and related taxes                          18,616,534         21,894,036
 Accrued annual leave                                       27,281,750         26,337,190
 Capital lease payable                                         237,479            544,878
 Unearned revenues and other liabilities                       872,868            556,846

      Total current liabilities                             72,695,418         64,736,471

LONG-TERM LIABILITIES:
 Capital lease payable                                          -                 237,479
 Accumulated retirement benefit obligation                  27,485,712         21,979,219
 Accumulated postretirement benefit obligation              11,799,079         10,219,672
 Accumulated postemployment benefit obligation              11,145,144         13,813,254
 Other long-term liabilities                                20,261,325          3,545,936

      Total long-term liabilities                           70,691,260         49,795,560
      Total liabilities                                    143,386,678        114,532,031

CUMULATIVE RESULTS OF OPERATIONS:
 Fund balance                                              138,451,243        118,473,958
 Accumulated other comprehensive income (loss)             (17,093,542)       (14,627,522)
      Total cumulative results of operations               121,357,701        103,846,436

TOTAL                                                  $ 264,744,379      $   218,378,467

See notes to financial statements.




                                                 -5­
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF REVENUES AND EXPENSES
AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010

                                                                          2011              2010
BOARD OPERATING REVENUES:
 Assessments levied on Federal Reserve Banks for Board
  operating expenses and capital expenditures                       $   472,300,000   $   422,200,000
 Other revenues                                                           6,555,903         8,693,489
      Total operating revenues                                          478,855,903       430,893,489
BOARD OPERATING EXPENSES:
 Salaries                                                               274,866,723       268,168,023
 Retirement and insurance                                                58,186,546        56,788,740
 Contractual services and professional fees                              37,486,707        48,698,913
 Depreciation, amortization, and net gains or losses on disposals        19,496,451        15,865,704
 Utilities                                                                8,736,997         8,628,394
 Travel                                                                  14,583,555        10,847,795
 Software                                                                 9,399,273         8,057,580
 Postage and supplies                                                    10,760,230         7,100,302
 Repairs and maintenance                                                  4,774,395         3,384,994
 Printing and binding                                                     2,345,881         2,240,489
 Other expenses                                                          18,241,860        16,316,499
      Total operating expenses                                          458,878,618       446,097,433
RESULTS OF OPERATIONS                                                    19,977,285       (15,203,944)
CURRENCY COSTS:
 Assessments levied or to be levied on Federal Reserve Banks for
  currency costs                                                        650,010,597       622,858,648
 Expenses for costs related to currency                                 650,010,597       622,858,648
      Currency assessments over (under) expenses                                 -                 -
BUREAU OF CONSUMER FINANCIAL PROTECTION (BUREAU):
 Assessments levied on the Federal Reserve Banks for the Bureau         241,711,564        32,770,000
 Transfers to the Bureau                                                241,711,564        32,770,000
      Bureau assessments over (under) transfers                                  -                 -
OFFICE OF FINANCIAL RESEARCH (OFFICE):
 Assessments levied on the Federal Reserve Banks for the Office          40,000,000         9,515,944
 Transfers to the Office                                                 40,000,000         9,515,944
      Office assessments over (under) transfers                                  -                 -

TOTAL RESULTS OF OPERATIONS                                         $    19,977,285   $   (15,203,944)


See notes to financial statements.




                                                           -6­
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF REVENUES AND EXPENSES
AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS (CONTINUED)
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010

                                                                2011               2010
CUMULATIVE RESULTS OF OPERATIONS — Beginning
 of year                                                   $   103,846,436    $   124,510,797

OTHER COMPREHENSIVE INCOME:
 Amortization of prior service (credit) cost                       507,786            518,195
 Amortization of net actuarial (gain) loss                         653,874            576,736
 Net actuarial gain (loss) arising during the year              (3,627,680)        (6,555,348)

       Total other comprehensive income (loss)                  (2,466,020)        (5,460,417)

CUMULATIVE RESULTS OF OPERATIONS — End of year             $   121,357,701    $   103,846,436


See notes to financial statements.




                                                     -7­
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


                                                                       2011             2010

CASH FLOWS FROM OPERATING ACTIVITIES:
 Results of operations                                             $ 19,977,285    $ (15,203,944)
 Adjustments to reconcile results of operations to net cash
  provided by (used in) operating activities:
  Depreciation and amortization                                      19,015,100       15,877,105
  Net loss (gain) on disposal of property and equipment                 481,351          (11,401)
  Other additional non-cash adjustments to results of operations        351,867          658,587
  (Increase) decrease in assets:
     Accounts receivable, prepaid expenses and other assets          (2,780,003)        730,143
  Increase (decrease) in liabilities:
     Accounts payable and accrued liabilities                         5,340,020         (822,981)
     Accrued payroll and related taxes                               (3,277,502)      10,953,052
     Accrued annual leave                                               944,560        1,516,146
     Unearned revenues and other liabilities                            316,022       (2,425,783)
     Net retirement benefit obligation                                4,128,953        3,911,348
     Net postretirement benefit obligation                              490,927          501,415
     Net postemployment benefit obligation                           (2,668,110)        (650,711)
     Other long-term liabilities                                        298,191        3,130,612

       Net cash provided by (used in) operating activities           42,618,661       18,163,588

CASH FLOWS FROM INVESTING ACTIVITIES:
 Capital expenditures                                               (23,585,868)     (17,296,078)

       Net cash provided by (used in) investing activities          (23,585,868)     (17,296,078)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Capital lease payments                                                (583,299)        (517,709)

       Net cash provided by (used in) financing activities             (583,299)        (517,709)

NET INCREASE (DECREASE) IN CASH                                      18,449,494         349,801

CASH BALANCE — Beginning of year                                     55,142,632       54,792,831

CASH BALANCE — End of year                                         $ 73,592,126    $ 55,142,632

See notes to financial statements.




                                                     -8­
BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2011 AND 2010


1.   STRUCTURE

     The Federal Reserve System (the System) was established by Congress in 1913 and consists of the
     Board of Governors (the Board), the Federal Open Market Committee, the twelve regional Federal
     Reserve Banks, the Federal Advisory Council, and the private commercial banks that are members of the
     System. The Board, unlike the Federal Reserve Banks, was established as a federal government agency
     and is supported by primarily Washington, D.C. based staff numbering approximately 2,300, as it carries
     out its responsibilities in conjunction with other components of the Federal Reserve System.

     The Board is required by the Federal Reserve Act (the Act) to report its operations to the Speaker of the
     House of Representatives. The Act also requires the Board, each year, to order a financial audit of each
     Federal Reserve Bank and to publish each week a statement of the financial condition of each such
     Federal Reserve Bank and a consolidated statement for all of the Federal Reserve Banks. Accordingly,
     the Board believes that the best financial disclosure consistent with law is achieved by issuing separate
     financial statements for the Board and for the Federal Reserve Banks. Therefore, the accompanying
     financial statements include only the results of operations and activities of the Board. Combined
     financial statements for the Federal Reserve Banks are included in the Board’s annual report to the
     Speaker of the House of Representatives.

     The Dodd-Frank Wall Street Reform and Consumer Financial Protection Act of 2010 (Dodd-Frank Act)
     established the Bureau of Consumer Financial Protection (Bureau) as an independent bureau within the
     System and designated the Board’s Office of Inspector General (OIG) as the OIG for the Bureau. As
     required by the Dodd-Frank Act, the Board transferred certain responsibilities to the Bureau in July
     2011. The Dodd-Frank Act also created the Financial Stability Oversight Council (FSOC) of which the
     Chairman of the Board is a member, as well as the Office of Financial Research (Office) within the U.S.
     Department of the Treasury to provide support to the FSOC and the member agencies. The Dodd-Frank
     Act requires that the Board provide funding for the FSOC and the Office until July 2012. Section 1017
     of the Dodd-Frank Act provides that the financial statements of the Bureau are not to be consolidated
     with those of the Board or the System; the Board has also determined that neither the FSOC nor the
     Office should be consolidated in the Board’s financial statements. Accordingly, the Board's financial
     statements do not include financial data of the Bureau, the FSOC, or the Office other than the funding
     that the Board is required by the Dodd-Frank Act to provide.

2.   OPERATIONS AND SERVICES

     The Board’s responsibilities require thorough analysis of domestic and international financial and
     economic developments. The Board carries out those responsibilities in conjunction with the Federal
     Reserve Banks and the Federal Open Market Committee. The Board also supervises and regulates the
     operations of the Federal Reserve Banks and exercises broad responsibility in the nation’s payments
     system. Policy regarding open market operations is established by the Federal Open Market Committee.
     However, the Board has sole authority over changes in reserve requirements, and it must approve any
     change in the discount rate initiated by a Federal Reserve Bank. The Board also plays a major role in the
     supervision and regulation of the U.S. banking system. It has supervisory responsibilities for state-
     chartered banks that are members of the Federal Reserve System, bank holding companies, savings and
     loan holding companies, foreign activities of member banks, U.S. activities of foreign banks, and any

                                                     -9­
     systemically important nonbank financial companies that are designated by the FSOC. Although the
     Dodd-Frank Act gave the Bureau general rule-writing responsibility for Federal consumer financial
     laws, the Board retains rule-writing responsibility under the Community Reinvestment Act and other
     specific statutory provisions. The Board also enforces the requirements of Federal consumer financial
     laws for state member banks with assets of $10 billion or less. In addition, the Board enforces certain
     other consumer laws at all state member banks, regardless of size.

3.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting — The Board prepares its financial statements in accordance with accounting
     principles generally accepted in the United States (GAAP).

     Revenues — The Federal Reserve Act authorizes the Board to levy an assessment on the Federal
     Reserve Banks to fund its operations. The Board levies the assessment based on each Federal Reserve
     Bank’s capital and surplus balances as of December 31 of the prior year.

     Assessments to Fund the Bureau and the Office — The Board assesses the Federal Reserve Banks for
     the funds transferred to the Bureau and the Office based on each Federal Reserve Bank’s capital and
     surplus balances. These assessments and transfers are reported separately from the Board’s operating
     activities in the Board’s Statements of Revenues and Expenses and Changes in Cumulative Results of
     Operations.

     Assessments for Supervisory and Regulatory Responsibilities — Section 318(c) of the Dodd-Frank
     Act requires that “the Board shall collect a total amount of assessments, fees, or other charges from the
     companies described in paragraph (2) that is equal to the total expenses the Board estimates are
     necessary or appropriate to carry out the supervisory and regulatory responsibilities of the Board with
     respect to such companies.” The companies described in paragraph (2) are those bank holding
     companies and savings and loan holding companies with total consolidated assets of $50 billion or more,
     and any systemically important nonbank financial companies that are designated by the FSOC.

     As of December 31, 2011, the Board has not issued rulemaking regarding this new responsibility, and
     does not currently anticipate finalizing any such rulemaking until later in 2012. As such, sufficient
     information is not available to determine a reasonable estimate of the fees that it may eventually collect
     under this section of the Dodd-Frank Act. Therefore, the Board has not accrued receivables or
     recognized revenues in the 2011 financial statements related to this new responsibility.

     Currency Costs — The Board issues the nation’s currency (in the form of Federal Reserve notes), and
     the Federal Reserve Banks distribute currency and coin through depository institutions. The Board
     incurs expenses and assesses the Federal Reserve Banks for the expenses related to producing, issuing,
     and retiring Federal Reserve notes as well as providing educational services. The assessment is allocated
     based on each Federal Reserve Bank’s share of the number of notes comprising the System’s net
     liability for Federal Reserve notes on December 31 of the prior year. These expenses and assessments
     are reported separately from the Board’s operating activities in the Board’s Statements of Revenues and
     Expenses and Changes in Cumulative Results of Operations.

     Allowance for Doubtful Accounts — Accounts receivable are shown net of the allowance for doubtful
     accounts. Accounts receivable considered uncollectible are charged against the allowance account in the
     year they are deemed uncollectible. The allowance for doubtful accounts is adjusted monthly, based
     upon a review of outstanding receivables.




                                                     - 10 ­
Property, Equipment, and Software — The Board’s property, buildings, equipment, and software are

stated at cost less accumulated depreciation and amortization. Depreciation and amortization are

calculated on a straight-line basis over the estimated useful lives of the assets, which range from three to

ten years for furniture and equipment, ten to fifty years for building equipment and structures, and two to

ten years for software. Upon the sale or other disposition of a depreciable asset, the cost and related

accumulated depreciation or amortization are removed and any gain or loss is recognized. Construction

in process include costs incurred for short-term and long-term projects that have not been placed into

service. The majority of the balance represents long-term building enhancement projects.


The Board’s internally developed software projects are each recorded at cost and capitalized and

amortized over the project’s useful life as required by the Financial Accounting Standards Board

(FASB) Accounting Standards Codification (ASC) Subtopic 350-40 Intangibles-Goodwill and Other –

Internal Use Software. 


Art Collections — The Board has collections of works of art, historical treasures, and similar assets.

These collections are maintained and held for public exhibition in furtherance of public service.

Proceeds from any sales of collections are used to acquire other items for collections. As permitted by

FASB ASC Topic 605 Revenue Recognition, the cost of collections purchased by the Board is charged

to expense in the year purchased and donated collection items are not recorded. The value of the Board’s

collections has not been determined.


Deferred Rent — The leases contain scheduled rent increases over the term of the lease. As required by

FASB ASC Topic 840 Leases, rent abatements, lease incentives, and scheduled rent increases must be 

considered in determining the annual rent expense to be recognized. The deferred rent represents the 

difference between the actual lease payments and the rent expense recognized.


Lease incentives impact deferred rent, are reflected as non-cash transactions in the Cash Flow from

Operating Activities section within the Cash Flow Statement, and are discussed in the leases footnote. 

The other non-cash transaction within this section of the Cash Flow Statement relates to a donated asset

discussed in the currency footnote. 


Estimates — The preparation of financial statements in conformity with GAAP requires management to

make estimates and assumptions that affect the reported amounts of assets and liabilities at the date of

the financial statements and the reported amounts of revenues and expenses during the reporting period.

Actual results could differ from those estimates.





                                                - 11 ­
4.   PROPERTY, EQUIPMENT, AND SOFTWARE

     The following is a summary of the components of the Board’s property, equipment, and software, at
     cost, net of accumulated depreciation and amortization as of December 31, 2011 and 2010:

                                                                         2011              2010

       Land                                                        $ 18,640,314       $ 18,640,314
       Buildings and Improvements                                   195,869,546        163,868,033
       Construction in process                                       13,952,693          4,810,307
       Furniture and Equipment                                       66,604,104         68,037,574
       Software in Use                                               27,091,292         24,244,811
       Software in Process                                            1,384,526          1,985,544
       Vehicles                                                         521,419            255,159
       Other Intangible assets                                          496,675            496,675

       Subtotal                                                      324,560,569       282,338,417

       Less accumulated depreciation and amortization               (142,656,968)     (125,571,231)

       Property, equipment, and software — net                     $ 181,903,601      $156,767,186

5.   LEASES

     Capital Leases —The Board entered into capital leases in 2008 and 2009. Furniture and equipment
     includes $2,086,000 under capital leases in both 2011 and 2010. Accumulated depreciation includes
     $1,852,000 and $1,319,000 under capital leases as of 2011 and 2010, respectively.

     The future minimum lease payments required under the capital leases and the present value of the net
     minimum lease payments as of December 31, 2011, are as follows:

                                                                                           Amount

        Total minimum lease payments for 2012                                          $ 421,924
        Less amount representing maintenance                                             (183,112)
                  Net minimum lease payments                                               238,812
        Less amount representing interest                                                    (1,333)
               Present value of net minimum lease payments                                  237,479
        Less current maturities of capital lease payments                                  (237,479)
        Long-term capital lease obligations                                            $       -


     Operating Leases — The Board has entered into several operating leases to secure office, training and
     warehouse space. Minimum annual payments under the operating leases having an initial or remaining
     non-cancelable lease term in excess of one year at December 31, 2011, are as follows:




                                                   - 12 ­
                              Years Ended

                              December 31,


                              2012                                  $ 12,459,159
                              2013                                    14,572,539
                              2014                                    14,950,511
                              2015                                    15,393,532
                              After 2015                              86,694,634

                                                                    $ 144,070,375

     Rental expenses under the operating leases were $6,093,000 and $6,882,000 for the years ended
     December 31, 2011 and 2010, respectively.

     The Board leases and subleases space, primarily to other governmental agencies. The revenues collected
     for these leases from the governmental agencies were $480,000 and $1,937,000 in 2011 and 2010,
     respectively.

     Deferred Rent — Other long-term liabilities include deferred rent of $19,733,000 and 3,051,000 for the
     years ended December 31, 2011 and 2010, respectively. The 2011 ending balance includes non-cash
     lease incentives of $16,417,000.

6.   ACCUMULATED RETIREMENT BENEFITS

     Substantially all of the Board’s employees participate in the Retirement Plan for Employees of the
     Federal Reserve System (the System Plan). The System Plan provides retirement benefits to employees
     of the Board, the Federal Reserve Banks, the Office of Employee Benefits of the Federal Reserve
     System (OEB), and certain employees of the Bureau. Under the Dodd-Frank Act, newly hired
     employees of the Bureau are eligible to participate in the System Plan and transferees from other
     governmental organizations can elect to participate in the System Plan. The Federal Reserve Bank of
     New York (FRB NY), on behalf of the System, recognizes the net assets and costs associated with the
     System Plan in its financial statements. During the year ended December 31, 2011, certain costs
     associated with the System Plan were reimbursed by the Bureau. Costs associated with the System Plan
     were not redistributed to participating employers during the year ended December 31, 2010.

     Employees of the Board who became employed prior to 1984 are covered by a contributory defined
     benefits program under the System Plan. Employees of the Board who became employed after 1983 are
     covered by a non-contributory defined benefits program under the System Plan. Contributions to the
     System Plan are actuarially determined and funded by participating employers. In 2011, the System
     made $420 million in contributions to the System Plan; the contributions may be adjusted upon
     completion of the 2012 actuarial valuation. The Board was not assessed a contribution for 2011.

     Effective January 1, 1996, Board employees covered under the System Plan are also covered under a
     Benefits Equalization Plan (BEP). Benefits paid under the BEP are limited to those benefits that cannot
     be paid from the System Plan due to limitations imposed by Sections 401(a)(17), 415(b) and 415(e) of
     the Internal Revenue Code of 1986. Activity for the BEP as of December 31, 2011 and 2010, is
     summarized in the following tables:




                                                   - 13 ­
                                                          2011                 2010


Change in projected benefit obligation:
 Benefit obligation — beginning of year              $   11,933,435       $    5,900,567
 Service cost                                             1,456,457            1,359,828
 Interest cost                                              602,381              545,688
 Plan participants’ contributions                              -                    -
 Actuarial (gain) loss                                      567,091            4,155,013
 Gross benefits paid                                        (35,438)             (27,661)
 Transfers to CFPB                                         (376,740)                -
Benefit obligation — end of year                     $   14,147,186       $   11,933,435

Accumulated benefit obligation — end of year         $    2,351,832       $    1,686,998
Weighted-average assumptions used to determine
 benefit obligation as of December 31:
 Discount rate                                                   4.50 %              5.50 %
 Rate of compensation increase                                   5.00 %              5.00 %
Change in plan assets:
 Fair value of plan assets — beginning of year       $          -         $         -
 Employer contributions                                       35,438              27,661
 Plan participants’ contributions                               -                   -
 Gross benefits paid                                         (35,438)            (27,661)
Fair value of plan assets — end of year              $           -        $          -
Funded status:
 Reconciliation of funded status — end of year:
  Fair value of plan assets                          $         -          $         -
  Benefit obligations                                    14,147,186           11,933,435
       Funded status                                     (14,147,186)         (11,933,435)
 Amount recognized — end of year                     $   (14,147,186)     $   (11,933,435)
 Amounts recognized in the statements of financial
  position consist of:
  Asset                                              $          -         $          -
  Liability                                              (14,147,186)         (11,933,435)
 Net amount recognized                               $   (14,147,186)     $   (11,933,435)
 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                          $    5,535,793       $    5,575,910
  Prior service cost (credit)                               699,952              701,833
 Net amount recognized                               $    6,235,745       $    6,277,743


                                           - 14 ­
  Expected cash flows:
   Expected employer contributions — 2012         $       67,738

   Expected benefit payments:*
    2012                                     $            67,738
    2013                                                  78,622
    2014                                                  88,824
    2015                                                  99,039
    2016                                                 114,703
    2017–2021                                            776,755
  *Expected benefit payments to be made from
   System assets
                                                                       2011                2010
  Components of net periodic benefit cost:
   Service cost                                                    $   1,456,457      $   1,359,828
   Interest cost                                                         602,381            545,688
   Expected return on plan assets                                           -                  -
   Amortization:
    Actuarial (gain) loss                                               230,468             287,957
    Prior service (credit) cost                                           1,881              12,290

  Net periodic benefit cost (credit)                               $   2,291,187      $   2,205,763

  Weighted-average assumptions used to determine
   net periodic benefit cost:
   Discount rate                                                           5.50 %               6.00 %
   Rate of compensation increase                                           5.00 %               5.00 %

  Other changes in plan assets and benefit obligations
   recognized in other comprehensive income:
   Current year actuarial (gain) loss                              $    190,351       $   4,155,013
   Amortization of prior service credit (cost)                           (1,881)            (12,290)
   Amortization of actuarial gain (loss)                               (230,468)           (287,957)

  Total recognized in other comprehensive (income) loss            $    (41,998)      $   3,854,766

  Total recognized in net periodic benefit cost and
   other comprehensive income                                      $   2,249,189      $   6,060,529


Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2012 are shown below:

  Net actuarial (gain) loss                                                         $ 424,241
  Prior service (credit) cost                                                          78,985

  Total                                                                             $ 503,226




                                                - 15 ­
On October 30, 2008, the Board approved a non-qualified plan for Officers of the Board. The retirement
benefits covered under the Pension Enhancement Plan (PEP) (formerly the Board Officer Pension
Enhancement) increases the pension benefit calculation from 1.8% above the Social Security integration
level to 2.0%. Activity for the PEP as of December 31, 2011 and 2010, is summarized in the following
tables:

                                                                         2011                 2010

  Change in projected benefit obligation:
   Benefit obligation — beginning of year                         $ 9,949,637           $ 7,120,820
   Service cost                                                       489,236               409,007
   Interest cost                                                      589,888               493,780
   Plan participants’ contributions                                      -                     -
   Actuarial (gain) loss                                            2,401,971             1,935,668
   Gross benefits paid                                                (57,124)               (9,638)
   Transfers to CFPB                                                 (123,399)                 -
  Benefit obligation — end of year                                $ 13,250,209          $ 9,949,637
  Accumulated benefit obligation — end of year                    $ 10,000,174          $ 7,063,653
  Weighted-average assumptions used to determine
   benefit obligation as of December 31:
   Discount rate                                                               4.50 %               5.50 %
   Rate of compensation increase                                               5.00 %               5.00 %
  Change in plan assets:
   Fair value of plan assets — beginning of year                  $        -            $        -
   Employer contributions                                                 57,124                 9,638
   Plan participants’ contributions                                          -                     -
   Gross benefits paid                                                   (57,124)               (9,638)
  Fair value of plan assets — end of year                         $        -            $       -
  Funded status:
   Reconciliation of funded status — end of year:
    Fair value of plan assets                                     $        -            $       -
    Benefit obligations                                               13,250,209            9,949,637
         Funded status                                                (13,250,209)          (9,949,637)
   Amount recognized — end of year                                $ (13,250,209)        $ (9,949,637)
   Amounts recognized in the statements of financial
    position consist of:
    Asset                                                         $         -           $        -
    Liability                                                         (13,250,209)          (9,949,637)
   Net amount recognized                                          $ (13,250,209)        $ (9,949,637)




                                              - 16 ­
                                                                            2011            2010

 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                             $ 5,416,792     $ 3,465,859
  Prior service cost (credit)                                             2,711,883       3,243,278

 Net amount recognized                                                  $ 8,128,675     $ 6,709,137

Expected cash flows:
 Expected employer contributions — 2012                 $     97,485

 Expected benefit payments:**
  2012                                                  $      97,485
  2013                                                        151,288
  2014                                                        213,417
  2015                                                        279,210
  2016                                                        344,635
  2017–2021                                                 2,877,198
**Expected benefit payments to be made from
 System assets

Components of net periodic benefit cost:
 Service cost                                                           $   489,236     $   409,007
 Interest cost                                                              589,888         493,780
 Expected return on plan assets                                               -               -
 Amortization:
  Actuarial (gain) loss                                                     327,639         212,555
  Prior service (credit) cost                                               531,395         531,395

Net periodic benefit cost (credit)                                      $ 1,938,158     $ 1,646,737

Weighted-average assumptions used to determine
 net periodic benefit cost:
 Discount rate                                                                 5.50 %          6.00 %
 Rate of compensation increase                                                 5.00 %          5.00 %

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:
 Current year actuarial (gain) loss                                     $ 2,278,572     $ 1,935,668
 Amortization of prior service credit (cost)                               (531,395)       (531,395)
 Amortization of actuarial gain (loss)                                     (327,639)       (212,555)

Total recognized in other comprehensive (income) loss                   $ 1,419,538     $ 1,191,718

Total recognized in net periodic benefit cost and
 other comprehensive income                                             $ 3,357,696     $ 2,838,455




                                               - 17 ­
Estimated amounts that will be amortized from accumulated other comprehensive income into net
periodic benefit cost (credit) in 2012 are shown below:

  Net actuarial (gain) loss                                                             $ 486,710
  Prior service (credit) cost                                                             531,395

  Total                                                                                 $ 1,018,105

The total accumulated retirement benefit obligation includes a liability for a supplemental retirement
agreement and a benefits equalization plan under the Federal Reserve System’s Thrift Plan. The total
obligation as of December 31, 2011 and 2010 is summarized in the following table:

                                                                      2011             2010

Accumulated retirement benefit obligation:
 Benefit obligation — BEP                                         $14,147,186      $11,933,435
 Benefit obligation — PEP                                          13,250,209        9,949,637
 Additional benefit obligations                                        88,317           96,147

Total accumulated retirement benefit obligation                   $27,485,712      $21,979,219

A relatively small number of Board employees participate in the Civil Service Retirement System
(CSRS) or the Federal Employees’ Retirement System (FERS). These defined benefit plans are
administered by the U.S. Office of Personnel Management, which determines the required employer
contribution levels. The Board’s contributions to these plans totaled $523,000 and $452,000 in 2011 and
2010, respectively. The Board has no liability for future payments to retirees under these programs and
is not accountable for the assets of the plans.

Employees of the Board may also participate in the Federal Reserve System’s Thrift Plan or Roth
401(k). Board contributions to members’ accounts were $17,699,000 and $16,695,000 in 2011 and 2010,
respectively.




                                               - 18 ­
7.   ACCUMULATED POSTRETIREMENT BENEFITS


     The Board provides certain life insurance programs for its active employees and retirees. Activity as of
     December 31, 2011 and 2010, is summarized in the following tables:

                                                                                2011                  2010

       Change in projected benefit obligation:
        Benefit obligation — beginning of year                           $ 10,219,672          $ 9,304,324
        Service cost                                                          186,268              188,357
        Interest cost                                                         529,161              532,592
        Plan participants’ contributions                                        -                    -
        Actuarial (gain) loss                                               1,158,757              464,667
        Gross benefits paid                                                  (294,779)            (270,268)

       Benefit obligation — end of year                                  $ 11,799,079          $ 10,219,672

       Weighted-average assumptions used to determine
        benefit obligation as of December 31 — discount rate                          4.50 %                5.25 %

       Change in plan assets:
        Fair value of plan assets — beginning of year                    $        -            $        -
        Employer contributions                                                  294,779               270,268
        Gross benefits paid                                                    (294,779)             (270,268)

       Fair value of plan assets — end of year                           $        -            $        -

       Funded status:
        Reconciliation of funded status — end of year:
         Fair value of plan assets                                       $        -            $        -
         Benefit obligations                                                 11,799,079            10,219,672

                 Funded status                                               (11,799,079)          (10,219,672)

        Amount recognized — end of year                                  $ (11,799,079)        $ (10,219,672)

        Amounts recognized in the statements of financial
         position consist of:
         Asset                                                           $         -           $         -
         Liability                                                           (11,799,079)          (10,219,672)

        Net amount recognized                                            $ (11,799,079)        $ (10,219,672)




                                                    - 19 ­
                                                                     2011           2010

 Amounts recognized in accumulated other
  comprehensive income consist of:
  Net actuarial loss (gain)                                      $ 2,980,166    $ 1,917,176
  Prior service cost (credit)                                       (251,044)      (276,534)

 Net amount recognized                                           $ 2,729,122    $ 1,640,642

Expected cash flows:
 Expected employer contributions — 2012             $ 349,523

 Expected benefit payments:*
  2012                                              $ 349,523
  2013                                                 375,715
  2014                                                 404,358
  2015                                                 431,631
  2016                                                 462,469
  2017–2021                                          2,714,234
*Expected benefit payments to be made from
 System assets

Components of net periodic benefit cost:
 Service cost                                                    $ 186,268      $ 188,357
 Interest cost                                                     529,161        532,592
 Expected return on plan assets                                       -              -
 Amortization:
  Actuarial (gain) loss                                              95,767         76,224
  Prior service (credit) cost                                       (25,490)       (25,490)

Net periodic benefit cost (credit)                               $ 785,706      $ 771,683

Weighted-average assumptions used to determine
 net periodic benefit cost — discount rate                             5.25 %         5.75 %

Other changes in plan assets and benefit obligations
 recognized in other comprehensive income:
 Current year actuarial (gain) loss                              $ 1,158,757    $ 464,667
 Amortization of prior service credit (cost)                          25,490       25,490
 Amortization of actuarial gain (loss)                               (95,767)     (76,224)

Total recognized in other comprehensive (income) loss            $ 1,088,480    $ 413,933

Total recognized in net periodic benefit cost and
 other comprehensive income                                      $ 1,874,186    $ 1,185,616




                                             - 20 ­
     Estimated amounts that will be amortized from accumulated other comprehensive income into net
     periodic benefit cost (credit) in 2012 are shown below:

       Net actuarial (gain) loss                                                                          $ 221,302

       Prior service (credit) cost                                                                          (25,490)


       Total                                                                                              $ 195,812

8.   ACCUMULATED POSTEMPLOYMENT BENEFITS

     The Board provides certain postemployment benefits to eligible former or inactive employees and their
     dependents during the period subsequent to employment but prior to retirement. Postemployment costs
     were actuarially determined using a December 31 measurement date and discount rates of 2.25% and
     3.50% as of December 31, 2011 and 2010, respectively. The net periodic postemployment benefit cost
     (credit) recognized by the Board as of December 31, 2011 and 2010, were ($1,606,000) and $701,000,
     respectively.

9.   ACCUMULATED OTHER COMPREHENSIVE INCOME (LOSS)

     A reconciliation of beginning and ending balances of accumulated other comprehensive income (loss)
     for the years ended December 31, 2011 and 2010, is as follows:

                                                                                    Amount Related to        Total Accumulated
                                                                Amount Related to     Postretirement                Other
                                                                 Defined Benefit    Benefits Other Than       Comprehensive
                                                                Retirement Plans        Pensions               Income (Loss)

       Balance — January 1, 2010                                 $    (7,940,396)    $    (1,226,709)         $ (9,167,105)

       Change in funded status of benefit plans:
        Amortization of prior service (credit) costs                     543,685            (25,490)                518,195
        Amortization of net actuarial (gain) loss                        500,512             76,224                 576,736
        Net actuarial gain (loss) arising during the year             (6,090,681)          (464,667)             (6,555,348)

               Change in funded status of benefit
                plans — other comprehensive income (loss)             (5,046,484)          (413,933)             (5,460,417)

       Balance — December 31, 2010                                   (12,986,880)         (1,640,642)           (14,627,522)

       Change in funded status of benefit plans:
        Amortization of prior service (credit) costs                     533,276             (25,490)               507,786
        Amortization of net actuarial (gain) loss                        558,107              95,767                653,874
        Net actuarial gain (loss) arising during the year             (2,468,923)         (1,158,757)            (3,627,680)

               Change in funded status of benefit
                plans — other comprehensive income (loss)             (1,377,540)         (1,088,480)            (2,466,020)

       Balance — December 31, 2011                               $   (14,364,420)    $    (2,729,122)         $ (17,093,542)




     Additional detail regarding the classification of accumulated other comprehensive income (loss) is
     included in Notes 6 and 7.


                                                            - 21 ­
10. FEDERAL RESERVE BANKS

   The Board performs certain functions for the Federal Reserve Banks in conjunction with its
   responsibilities for the System, and the Federal Reserve Banks provide certain administrative functions
   for the Board. The Board assesses the Federal Reserve Banks for its operating expenses, to include
   expenses related to its currency responsibilities, as well as for the funding the Board is required to
   provide to the Bureau and the Office. Activity related to the Board and Federal Reserve Banks as of
   December 31, 2011 and 2010, is summarized in the following table:

                                                                                  2011              2010

      Assessments levied or to be levied on Federal Reserve Banks for:
       Currency expenses                                                     $ 650,010,597     $ 622,858,648
       Operating expenses of the Board                                         472,300,000       422,200,000
       Operating expenses of the Bureau                                        241,711,564        32,770,000
       Operating expenses of the Office                                         40,000,000         9,515,944

      Total Assessments levied or to be levied on Federal Reserve Banks      $ 1,404,022,161   $ 1,087,344,592

      Board expenses charged to the Federal Reserve Banks for data processing $     406,421    $      483,512

      Federal Reserve Bank expenses charged to the Board:
       Data processing and communication                                     $      788,910    $      919,889
       Contingency site                                                           1,211,362         1,254,331

      Total Federal Reserve Bank expenses charged to the Board               $    2,000,272    $    2,174,220


      Net transactions with Federal Reserve Banks                            $ 1,402,428,310   $ 1,085,653,884

      Accounts receivable due from the Federal Reserve Banks                 $    2,501,565    $      856,685
      Accounts payable due to the Federal Reserve Banks                      $       16,358    $         ­




   The Board also contracted for audit services on behalf of entities that are included in the combined
   financial statements of the Federal Reserve Banks. The entities reimburse the Board for the cost of the
   audit services. The Board accrued liabilities of $293,000 and $322,000 in audit services and recorded
   receivables of $500,000 and $322,000 from the entities as of December 31, 2011 and 2010, respectively.

11. FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

   The Board is one of the five member agencies of the Federal Financial Institutions Examination Council
   (the Council), and currently performs certain management functions for the Council. The five agencies
   that are represented on the Council are the Board, Federal Deposit Insurance Corporation, National
   Credit Union Administration, Office of the Comptroller of the Currency, and the Bureau of Consumer
   Financial Protection.




                                                     - 22 ­
   The Board’s financial statements do not include financial data for the Council. Activity related to the
   Board and Council, as of December 31, 2011 and 2010, is summarized in the following table:

                                                                             2011            2010

     Council expenses charged to the Board:
      Assessments for operating expenses                                 $ 137,421       $ 126,469
      Assessments for examiner education                                    810,459         672,153
      Central Data Repository                                             1,113,255       1,202,704
      Uniform Bank Performance Report                                       117,215         154,877

     Total Council expenses charged to the Board                         $2,178,350      $2,156,203

     Board expenses charged to the Council:
      Data processing related services                                   $4,164,479      $4,897,107
      Administrative services                                               281,000         245,000

     Total Board expenses charged to the Council                         $4,445,479      $5,142,107

     Accounts receivable due from the Council                            $ 494,234       $ 579,792
     Accounts payable due to the Council                                 $ 132,539       $ 290,047



12. THE OFFICE OF EMPLOYEE BENEFITS OF THE FEDERAL RESERVE SYSTEM

   The Office of Employee Benefits of the Federal Reserve System (OEB) administers certain System
   benefit programs on behalf of the Board and the Federal Reserve Banks, and costs associated with the
   OEB’s activities are assessed to the Board and Federal Reserve Banks. The Board was assessed
   $2,596,000 and $2,371,000 as of December 31, 2011 and 2010, respectively.

13. THE BUREAU OF CONSUMER FINANCIAL PROTECTION

   Sec. 1017 of the Dodd-Frank Act requires the Board to fund the Bureau from the combined earnings of
   the Federal Reserve System, the amount of which is determined by the Director of the Bureau to be
   reasonably necessary to carry out the authorities of the Bureau under Federal consumer financial law,
   taking into account such other sums made available to the Bureau from the preceding year (or quarter of
   such year).

   Beginning July 2011, the Dodd-Frank Act limits the amount to be transferred each fiscal year to a fixed
   percentage of the System’s total operating expenses. The Board received and processed funding
   requests for the Bureau totaling $241,711,564 and $32,770,000 during calendar years 2011 and 2010,
   respectively. These requests do not include funding related to the operations of the OIG. The Board and
   the Bureau are in the process of evaluating the impact of the OIG’s dual responsibilities on future
   funding requests.

   As part of the transfer of responsibilities from the Board to the Bureau, certain Board staff were
   transferred to the Bureau during 2011. The Board will continue to administer certain non-retirement
   benefits for all transferred Board employees through July 20, 2012.



                                                   - 23 ­
14. THE OFFICE OF FINANCIAL RESEARCH


   Sec. 155(c) of the Dodd-Frank Act requires the Board to provide an amount sufficient to cover the
   expenses of the Office for the 2-year period following the date of the enactment (July 21, 2010). The
   expenses of the FSOC are included in the expenses of the Office. The Board received and processed
   funding requests for the Office totaling $40,000,000 and $9,515,944 during 2011 and 2010, respectively.

15. CURRENCY

   The Bureau of Engraving and Printing (BEP) is the sole supplier for currency printing and also provides
   currency retirement services. During 2011, the Board assumed greater responsibility for education and
   quality assurance services associated with currency. The currency costs incurred by the Board as of
   December 31, 2011 and 2010, are reflected in the following table:

                                                                           2011                2010

   Expenses related to BEP services:
    Printing                                                         $ 623,214,300       $ 598,238,821
    Retirement                                                           3,475,244           3,513,538
   Subtotal related to BEP services                                  $ 626,689,544       $ 601,752,359

   Other currency expenses:
    Shipping                                                         $ 15,728,046        $ 16,900,584
    Research and development                                            4,486,525           4,205,705
    Quality assurance services                                          2,992,053                -
    Education services                                                    114,429                -

   Subtotal other currency expenses                                  $ 23,321,053        $ 21,106,289

   Total currency expenses                                           $ 650,010,597       $ 622,858,648


   In October 2011, the Board received web software from the BEP for the education services the Board is
   managing as part of its currency responsibilities. The fair market value of the donated asset as of
   December 31, 2011 was $50,000.

16. COMMITMENTS AND CONTINGENCIES

   Commitments — The Board has entered into an agreement with the Federal Deposit Insurance
   Corporation and the Office of the Comptroller of the Currency, through the Council, to fund a portion of
   the enhancements and maintenance fees for a central data repository project that requires maintenance
   through 2013. The estimated Board expense to support this effort is $2 million for the remaining option
   period.

   Litigation and Contingent Liabilities — The Board is subject to contingent liabilities which arise from
   litigation cases and various business contracts. These contingent liabilities arise in the normal course of
   operations and their ultimate disposition is unknown. Based on information currently available to
   management, it is management’s opinion that the expected outcome of these matters, in the aggregate,
   will not have a materially adverse effect on the financial statements.


                                                   - 24 ­
17. SUBSEQUENT EVENTS

   There were no subsequent events that require adjustments to or disclosures in the financial statements as
   of December 31, 2011. Subsequent events were evaluated through March 8, 2012, which is the date the
   financial statements were available to be issued.

                                               ******




                                                  - 25 ­
                                                                                       Deloitte & Touche LLP
                                                                                       Suite 800
                                                                                       1750 Tysons Boulevard
                                                                                       McLean, VA 22102-4219
                                                                                       USA
                                                                                       Tel: +1 703 251 1000
                                                                                       Fax: +1 703 251 3400
                                                                                       www.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF
FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH GOVERNMENT
AUDITING STANDARDS

To the Board of Governors of the Federal Reserve System:
Washington, D.C.

We have audited the financial statements of the Board of Governors of the Federal Reserve System (the
“Board”) as of and for the years ended December 31, 2011 and 2010, and have issued our report thereon
dated March 8, 2012. We conducted our audit in accordance with generally accepted auditing standards
as established by the Auditing Standards Board (United States), auditing standards of the Public Company
Accounting Oversight Board (United States), and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

Internal Control over Financial Reporting

In accordance with standards of the Public Company Accounting Oversight Board (United States) and
Government Auditing Standards, we have also issued our report dated March 8, 2012, on our tests of the
Board’s internal control over financial reporting. The purpose of that report is to describe the scope and
the results of that testing. That report is an integral part of an audit performed in accordance with
standards of the Public Company Accounting Oversight Board (United States) and Government Auditing
Standards and should be considered in assessing the results of our audit.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Board’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.




March 8, 2012




                                                                                      Member of
                                                                                      Deloitte Touche Tohmatsu
